               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Lease Risk Model Analysis in the
              Northeast Area

                       Audit Report




                                              October 23, 2013

Report Number SM-AR-14-001
                                                                        October 23, 2013

                                                     Lease Risk Model Analysis in the
                                                                      Northeast Area

                                                         Report Number SM-AR-14-001



BACKGROUND:
The U.S. Postal Service spends more           were for significantly underused facilities
than $805 million annually leasing about      based on decreases in revenue, mail
24,000 facilities nationwide. The             volume, and hours worked. The
Northeast Area spends more than               Northeast Area and Facilities could also
$184 million annually to lease more than      use model results to further target their
3,300 facilities.                             node studies on underused facilities.

Area officials begin the lease renewal        While Postal Service policy directs
process 12 to 24 months before a lease        Facilities personnel to determine and
ends by reviewing lease information           provide fair market value for expiring
provided by the Postal Service's              leases, the Northeast Area lacked the
Facilities organization. In conjunction       resources to verify whether this data
with Facilities, area officials balance       was accurate. Additionally, Facilities’
their portfolio of existing facilities with   node study criteria excluded some
current and projected space needs by          facilities for review due to their lease
conducting facility operational analyses      expiration date or annual lease value.
called node studies.
                                              Given the financial challenges facing the
During fiscal year 2012, the U.S. Postal      Postal Service, the Northeast Area and
Service Office of Inspector General           Facilities could use OIG model results to
(OIG) developed a predictive risk model,      potentially save money on lease
which analyzes whether the Postal             payments and better target resources to
Service is renewing leases at a fair price    determine facility optimization.
and whether it needs leased space that
is due for renewal. Our objective was to      WHAT THE OIG RECOMMENDED:
assess opportunities for potential cost       We recommended the vice president,
savings in Northeast Area facility leases.    Northeast Area, in coordination with the
                                              vice president, Facilities, use the OIG
WHAT THE OIG FOUND:                           risk model results to assist in the
The Northeast Area could potentially          decision making and negotiation of
realize cost savings in 52 percent of its     lease rates and future node studies.
facility lease renewals. Of those, the risk
model indicated above-market rates for        Link to review the entire report
250 leases that are expiring within 2
years, which represents $6.6 million in
potential savings over the duration of
the leases. Thirty-nine of these leases
October 23, 2013

MEMORANDUM FOR:            RICHARD P. ULUSKI
                           VICE PRESIDENT, NORTHEAST AREA

                           TOM A. SAMRA
                           VICE PRESIDENT, FACILITIES




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Lease Risk Model Analysis in the Northeast
                           Area (Report Number SM-AR-14-001)

This report presents the results of our audit of the Lease Risk Model Analysis in the
Northeast Area (Project Number 13YG009SM000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Lease Risk Model Analysis in the Northeast Area                                                                    SM-AR-14-001




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Above-Market and High Capacity Risk Leases ............................................................... 1

Focusing Node Studies ................................................................................................... 2

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Monetary Impact ......................................................................................... 8

Appendix C: Potential Savings ........................................................................................ 9

Appendix D: Top 50 Riskiest Leases for Capacity Compared to Node Studies ............ 18

Appendix E: Management’s Comments ........................................................................ 20
Lease Risk Model Analysis in the Northeast Area                                                            SM-AR-14-001



Introduction

This report presents the results of our self-initiated audit of Lease Risk Model Analysis
in the Northeast Area (Project Number 13YG009SM000). Our objective was to assess
opportunities for potential cost savings in Northeast Area facility leases. See Appendix
A for additional information about this audit.

The U.S. Postal Service spends more than $805 million annually leasing about 24,000
facilities nationwide. The Northeast Area spends more than $184 million each year to
lease more than 3,300 facilities. Area officials begin the lease renewal process 12 to 24
months before a lease ends by reviewing lease information provided by the Postal
Service's Facilities organization. In conjunction with Facilities, area officials balance
their portfolio of existing facilities with current and projected space needs by conducting
facility operational analyses called node studies.1

During fiscal year (FY) 2012, the U.S. Postal Service Office of Inspector General (OIG)
developed a predictive risk model, the Lease Building Renewal Risk Model (LBRRM), to
analyze leased properties. The LBRRM analyzes whether the Postal Service is
renewing leases at a fair price and whether it needs the leased space that is due for
renewal. The model evaluates each Postal Service lease and uses five risk metrics
related to safety, fraud, facility worth, facility lease rate, and facility capacity.

Conclusion

The Northeast Area could potentially realize cost savings in 52 percent of its facility
lease renewals. Of those, the risk model indicated above-market rates for 250 leases
that are expiring within 2 years, which represents $6.6 million in potential savings over
the duration of the leases. Thirty-nine of these leases were for significantly underutilized
facilities based on decreases in revenue, mail volume, and hours worked. The
Northeast Area and Facilities could also use OIG model results to further target the
Northeast Area's node study resources on underutilized facilities.

Above-Market and High Capacity Risk Leases

The Northeast Area could potentially realize cost savings in 52 percent of its facility
lease renewals. Specifically, the LBRRM identified 1,762 of 3,389 leases in which the




1
  An operational analysis performed on a plant, retail, or delivery facility. The analysis may reveal a 'rightsizing'
possibility at an existing facility or the opportunity to sell a vacated existing owned building or terminate an existing
leased facility. The studies also identify changes that are needed to the existing facility or new construction that may
be required. The area of study is determined by transportation network data and available facilities within a 10-mile
radius typical.
                                                                 1
Lease Risk Model Analysis in the Northeast Area                                                         SM-AR-14-001



area is possibly paying rent above the market rate. Of those, 250 leases are expiring
within 2 years and were identified as high risk for lease rate,2 which represents
$6.6 million in potential savings — or funds put to better use — over the duration of the
leases. In addition, 39 of these leases were identified as high risk for capacity. While the
lease rate metric results are indications of potential above-market leases, we
understand that the model does not address specific Postal Service facility
considerations such as unique facility types, locations, and traffic patterns. See
Appendix B for monetary impact and Appendix C for expiring leases representing
potential savings.

For example, the LBRRM identified the West Lynn Station in Lynn, MA as high risk for
both lease rate and capacity due to an above-market rent and a decline in revenue and
mail volume. However, the Postal Service recently renewed the lease for a 5-year term,
without a decrease in rent or leased space, earning the West Lynn Station an even
higher lease rate risk score.

Postal Service policy3 directs real estate specialists to determine fair market value for
expiring leases. The Northeast Area relied on these fair market values as the basis for
its decision making to renew leases; however, according to an area official, they did not
have the resources to verify whether the lease rates were at market value. In some
cases, Facilities presented the area with above-market leases for renewal because it
lacked negotiating leverage because of the absence of viable facility alternatives. Also,
according to Facilities personnel, Facilities has experienced a backlog of lease
renewals, creating time constraints and further decreasing negotiating leverage.

Focusing Node Studies

The Northeast Area and Facilities have an opportunity to use LBRRM results to pinpoint
optimal locations for their node studies and focus resources on leases that are high risk
for both capacity and lease rate. Forty of the 50 riskiest leases reviewed for high
capacity were not considered for node studies. Five of the riskiest high capacity leases
were also identified as high risk for lease rate. See Appendix D for Top 50 Riskiest
Leases for Capacity.

The Postal Service identifies facilities for node studies based on leases that expire
within the current fiscal year, primarily having an annual rent greater than $400,000 and
containing excess space. The 40 leases that were not considered for node studies did
not meet these criteria; however, the LBRRM results would allow the Postal Service to
take into account high-risk leases for capacity when determining areas for possible
optimization efforts.



2
  We assigned lease rate scores to each facility based on their annual savings potential, which we calculated by
comparing the current lease amount to the projected lease amount. High-risk lease rate scores indicate facilities that
have the greatest savings potential and consequently should be negotiated to market rates. Scores range from 1 to
20, with 20 representing the riskiest leases. These leases scored 10 or greater.
3
  Postal Service Standard Operating Procedures for Levels 1, 2, and 3 leasing.


                                                           2
Lease Risk Model Analysis in the Northeast Area                                 SM-AR-14-001



Given the financial challenges facing the Postal Service, the Northeast Area and
Facilities can use LBRRM results to help mitigate the Postal Service’s financial and
operational risk. Specifically, the area could renegotiate above-market lease rates to
lower rates and further target resources to determine facility optimization. Although the
LBRRM does not include potential facility relocation costs or the political ramifications
associated with facility closures, the model does provide additional information to assist
with operational decision making.

Recommendations

We recommend the vice president, Northeast Area, in coordination with the vice
president, Facilities:

1. Use the Lease Building Renewal Risk Model lease rate and capacity metric results
   to assist in the decision making and negotiation of lease rates.

2. Use the Lease Building Renewal Risk Model capacity metric results to consider
   facilities with high capacity risk scores for future node studies.

Management’s Comments

Management disagreed with our findings, recommendations, and monetary impact.
Management based their disagreement on the incorrect application of CoStar data used
by the LBRRM to estimate potential savings. Management’s areas of concerns are the
usage of CoStar data, inaccurate potential savings, ability to reduce square footage
based on drop in retail revenue and work hours and inaccurate data in the report.

Management stated CoStar provides a substantial amount of information to determine
fair market value that the LBRRM does not take into consideration. The model database
only consists of rental rates that are listed in a given area (which excludes a substantial
number of properties that have rents withheld4). In addition, the LBRRM takes all the
rentals in a given area, which in many cases is a 3-digit ZIP Code area, averages them
together and says the average is the projected lease amount that we should pay.

Management stated that based on the model, the total projected lease rate for all 3,389
properties in the report should be $275,305,397 (those over and under market rate).
Therefore, according to the model and how it applies CoStar data, they are paying a
total of $91 million under the LBRRM projected lease rate or 33 percent less than what
the audit states. Management does not believe that is the case and stated that this
proves that the CoStar data was inaccurately applied.

Management stated that declines in revenue and mail volume or no revenue or volume
do not translate into the ability to lower lease rates. Management also noted
inaccuracies in six of the top 25 highest claimed potential savings facilities; six had the
wrong current lease and three had the wrong current square footage.
4
    Rents withheld are when rent data was not available for that property.


                                                             3
Lease Risk Model Analysis in the Northeast Area                                 SM-AR-14-001




Management stated that they would continue to utilize the robust optimization and
leasing program. They are always open to new and improved methodologies to pinpoint
realistically capture savings. However, they do not believe the model allows them to
accurately achieve those results. See Appendix E for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments nonresponsive to our recommendations.
We disagree with their assessment of the LBRRM and our usage of its results.
Regarding management’s concern with the usage of CoStar data, our model did take
into consideration asking rents, market trends, and vacancy rates ― the primary factors
in establishing fair market lease rates. Also, in the interest of reasonableness, we
included facilities comparable to Postal Service facilities to avoid wildly unrepresentative
figures. We searched comparable facilities in 5-digit ZIP Code areas and only resorted
to 3-digit ZIP Code areas when we could not obtain sufficient data.

In regards to our potential monetary savings, our model was not intended to 'average'
out below and above market rates but to focus on opportunities to realize cost savings
on leases for which the Postal Service is paying above market rates. Our model was
designed to identify areas of risk on lease rates and to focus resources on these
opportunities.

We disagree with the Postal Service's stance that revenue and work hours could not
result in lease rate savings. Reductions in revenue and work hours are considered in
the calculations used to determine 'needed' space. Therefore, when renegotiating a
lease, a reduction of the 'needed' space could result in lease savings. This may not
apply to every property; but our risk model is designed to present an overall view of
opportunities for savings.

In regards to management’s statement that we used inaccurate data, our risk model
pulled the current lease rate and square footage information from the Postal Service's
electronic Facilities Management System (eFMS). Two of the inaccurate lease rates
that management mentioned are due to periodic increases in rent during the lease
recorded in eFMS, which our model duplicated. The incorrect square footage data could
be due to incorrect data recorded in eFMS or revisions that were made after we
downloaded data for our audit.

We appreciate management’s assessment and will continue to work with them to
improve the LBRRM and make it a more valuable tool.




                                                  4
Lease Risk Model Analysis in the Northeast Area                                                          SM-AR-14-001




                                  Appendix A: Additional Information

Background

During FY 2012, the OIG developed a predictive risk model, the LBRRM, to analyze
leased properties. The purpose of the LBRRM is to assist the Postal Service in
renewing leases at a fair price and identifying whether it needs the leased space that is
due for renewal. The model evaluates each Postal Service lease, using five risk metrics
related to safety, fraud, facility worth, facility lease rate, and facility capacity. The facility
lease rate and capacity metrics were significant to our audit objective.

Lease Rate

The lease rate metric has four parts:

   Current lease rate.
   Projected lease rate.
   ZIP Code.
   Interior square footage.

We assigned lease rate scores to each facility based on their annual savings potential
and calculated potential savings by comparing current lease amounts to projected lease
amounts. For each facility, the risk model accessed retail market data5 for the facility’s
submarket (determined by ZIP Code) and, using historical growth figures for that
submarket, calculated the market lease rate for 2 years in the future.6

While the lease rate metric results indicate potential above-market leases, we
understand that the model does not address specific Postal Service facility
considerations such as unique facility types, locations, and traffic patterns. The resulting
weighted lease rate scores range from 1 to 20, with 20 representing the riskiest leases.
High lease rate scores indicate facilities that have the greatest savings potential and,
consequently, should be negotiated to market rates.

Capacity

The capacity metric has four parts:

   Revenue.
   Volume.
   Hours worked.
   Interior square footage.

5
  Market rate and growth rate data were provided by CoStar, a commercial real estate information company.
6
  The reason for using projected market rates 2 years in the future is that leases take about 2 to 3 years to
investigate; therefore, the lease would also be negotiated 2 to 3 years in the future, and thus, the potential savings
would be more accurate by using the future predicted market rates.


                                                            5
Lease Risk Model Analysis in the Northeast Area                                                          SM-AR-14-001




The capacity metric is calculated based on the change of revenue, volume, and hours
worked over time on a per interior square foot basis. Based on these trends, each
facility was given a capacity score of 1 through 10, with 10 being the highest risk
capacity. A high capacity score indicates facilities that are dropping in revenue, volume,
or hours worked over time.

A total of 3,389 leases existed in the Northeast Area as of June 2012. The LBRRM
indicated overpayment of rent in 1,762 of those leases. Of those, 250 are expiring within
the next 2 years, between October 1, 2013, and September 30, 2015, and are
considered high risk for lease rate.7 In addition, 39 of the expiring risky lease rate leases
also have high capacity scores.8

As part of the Facilities optimization program to address excess space, Facilities
created node studies. A node study is an operational analysis performed on a plant,
retail, or delivery facility. The study may reveal a 'rightsizing' possibility at an existing
facility or the opportunity to sell a vacated existing owned building or terminate an
existing leased facility. The studies also identify changes needed to the existing facility
or new construction that may be required. The area of study is determined by
transportation network data and available facilities within a 10-mile radius typical.

The LBRRM identified the top 50 riskiest leases for capacity in the Northeast Area. Of
those 50 leases, only 10 were associated with node studies. As illustrated in
Appendix D the 40 remaining leases were not considered because they did not meet
Facilities node study criteria of leases that are expiring within the fiscal year with annual
rent greater than $400,000 and containing excess space.

A Facilities official explained that, during the initial phase of the optimization program,
each Facilities Service Office, being familiar with the area, identified high-profile facilities
with excess space. Facilities has since refined the process to its current criteria.
However, the model identified leases risky for capacity and, in some cases, lease rate
that could also be considered for node studies.

Objective, Scope, and Methodology

Our objective was to assess opportunities for cost savings in facility leases in the
Northeast Area. Specifically, we identified potential savings in facility lease renewals
and identified facilities with underutilized facility capacity.

To accomplish our objective, we:

   Obtained the universe of leases in the Northeast Area from the LBRRM as of June
    30, 2012, which provided 2,946 finance numbers that translated to 3,389 leases.

7
 Expiring leases with positive potential savings and lease rate metric scores of 10 or greater.
8
 Expiring leases with positive potential savings, lease rate metric scores of 10 or greater, and capacity scores of 5 or
greater.


                                                           6
Lease Risk Model Analysis in the Northeast Area                                SM-AR-14-001




   Validated the accuracy of the LBRRM lease rate and capacity metric calculations
    using trend analysis and lease market data. We worked with the Postal Service and
    OIG Countermeasures and Performance Evaluations team to obtain source data
    and model input data to resolve discrepancies when validating the metrics.

   We reviewed the lease rate and capacity metrics results for the Northeast Area in
    their entirety and compared the top 50 riskiest leases to the approved and pending
    node studies in the Northeast Area.

   We interviewed Northeast Area officials regarding the area’s involvement in the
    lease renewal process and the manager of Facilities Requirements to discuss the
    methodology and criteria used to prioritize node studies.
We conducted this performance audit from December 2012 through August 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 26, 2013, and included their
comments where appropriate.

We assessed the reliability of LBRRM data by comparing model results to Postal
Service and public rental market data. We determined that the data were sufficiently
reliable for the purposes of this report.

Prior Audit Coverage

The OIG issued Nationwide Facility Optimization (Report Number DA-AR-11-009, dated
August 26, 2011) and projected that, of the 284 million square feet of interior space it
owns or leases nationwide, the Postal Service maintains 67 million square feet (or 24
percent) of excess square feet of interior space, representing $1.9 billion in funds put to
better use. This level of excess is more than the current commercial vacancy rate of
13.4 percent. Management stated they are using a comparable standard based on
operational need and Facility Planning standards to calculate excess space.
Management also stated they will incorporate the reduction of interior square footage as
a measurement into their report card beginning in FY 2012 and will pursue the
possibility of incorporating optimization goals into the National Performance
Assessment. Management did not agree with the amount of excess space or the
potential monetary impact reported.




                                                  7
Lease Risk Model Analysis in the Northeast Area                                                      SM-AR-14-001




                                     Appendix B: Monetary Impact


           Recommendation                         Impact Category                           Amount
                 1                              Funds put to better use9                   $6,629,831

We calculated $6.6 million in funds put to better use by identifying expiring leases with
positive potential savings and high lease rate metric scores (10 or greater). We further
excluded potential savings related to leases in Puerto Rico.10 See Appendix C for
detailed calculations for each lease.




9
  Funds that could be used more efficiently by implementing recommended actions.
10
   The LBRRM does not contain lease market data for the territory of Puerto Rico. Consequently, we did not rely on
lease rate metrics and potential savings identified for Puerto Rico.


                                                         8
Lease Risk Model Analysis in the Northeast Area                                                  SM-AR-14-001



                                        Appendix C: Potential Savings

Count    Facility Name      Facility        Interior      Lease       Lease     Projected   Potential
                            Address         Square      Expiration   Amount       Lease     Savings
                                            Footage        Date                  Amount
1        Jamaica Plain    Jamaica Plain,       20,076      4/30/15   $991,750
         Station          MA
2        Cherokee         New York, NY         3,800     11/30/13    $551,000
         Finance
         Station
3        Milk Street      Boston, MA           6,620     12/31/13    $354,973
         Station
4        Main Office      Far Hills, NJ        2,078       3/31/15   $210,450
5        Station C        Flushing, NY         6,890       6/30/15   $310,640
6        Bay Terrace      Bayside, NY          2,244       8/31/15   $174,074
         Finance
         Station
7        Main Office      Acton, MA           13,438       4/30/15   $275,910
8        North Quincy     Quincy, MA           3,145       2/28/15   $151,250
         Carrier Annex
9        Main Office      Carlisle, MA         4,901       5/31/14   $153,834
10       Lafayette        Boston, MA           3,846       6/30/14   $177,600
         Station
11       Main Office      Somers, NY           8,034       7/31/14   $237,000
12       Bushwick         Brooklyn, NY        14,600     11/30/13    $394,200
         Station
13       Kingsbridge      Bronx, NY           11,303       9/30/14   $319,304
         Station
14       Main Office      Mohegan,             6,000       8/20/14   $174,570
                          Lake, NY
15       Roessleville      Albany, NY          4,737     11/30/13    $123,162
         Branch -
         Colonie
16*      Kingsway         Brooklyn, NY         3,750       7/31/14   $160,000
         Finance
         Station
17       Port Authority   New York, NY         5,320       5/31/14   $274,380
         Finance
         Station
18       Main Office      Chelmsford,          3,975       3/31/15   $119,592
                          MA
19       Uptown           Hoboken, NJ          1,101       4/30/15    $86,658
         Station
20       South Station    Nashua, NH           3,617       7/31/15   $101,276
         - Finance
         Station
21       Main Office      Goldens              3,810       3/31/14   $133,343
                          Bridge, NY
22       Charlestown      Charlestown,         3,800     12/31/13    $132,100
                          MA
23       Downtown         Portland, ME         7,412       7/14/14   $143,992
         Station
24       Main Office      Kittery, ME          8,393       6/30/15   $135,000
25       Main Office      Bolton, MA           4,899       9/30/14   $111,115
26       Main Office      Duxbury, MA          6,370       2/28/15   $131,350
27       Main Office      Ardsley, NY          3,018       6/30/14   $106,470
28       Main Office      Bedford, NY          2,526       3/31/15    $96,800
29       Newton           Newton               3,071       4/30/14   $103,000
         Highlands        Highlands, MA




                                                          9
Lease Risk Model Analysis in the Northeast Area                                                  SM-AR-14-001



Count    Facility Name       Facility       Interior      Lease       Lease     Projected   Potential
                             Address        Square      Expiration   Amount       Lease     Savings
                                            Footage        Date                  Amount
30       Melrose          Melrose, MA           4,882      6/30/15   $108,970
31*      Brighton         Brooklyn, NY         1,643       6/30/15    $85,000
         Finance
         Station
32*      Mosholu          Bronx, NY            2,499     12/31/14     $96,600
         Finance
         Station
33       Main Office      Succasunna,          5,040       7/31/15   $149,950
                          NJ
34       Main Office      Ho Ho Kus,           3,945     11/30/13    $120,000
                          NJ
35       Retail Station   Springfield, NJ      4,720       3/31/14   $141,600
36       Bayside          Bayside, NY          8,342       7/31/14   $274,884
         Station
37*      Swampscott       Swampscott,          4,434       1/31/15    $99,600
         Branch           MA
38       North Babylon    North                6,015       8/31/15   $183,000
         Branch           Babylon, NY
39       West Concord     Concord, MA          2,354        8/5/14    $66,675
         Station
40       Stadium          Bronx, NY            1,806       6/30/15    $76,544
         Station
41       Whitestone       Whitestone,          8,470       1/31/14   $275,240
         Station          NY
42       Haledon, N.      Haledon, NJ          4,963     12/31/14    $105,000
         Haledon
         Branch
43       Main Office      Glenmont, NY         4,150       9/13/14    $93,873
44*      Main Office      Sagaponack,            252       6/30/15    $39,600
                          NY
45*      Main Office      Peapack, NJ            710     10/31/14     $50,000
46       Main Office      Ogunquit, ME         3,228     10/31/13     $64,560
47*      Clason Point     Bronx, NY            1,918       6/30/15    $73,500
         Finance
         Station
48       Main Office      Yarmouth, ME         6,566       9/21/15   $106,066
49       Main Post        Averill Park,        3,823     11/30/14     $72,860
         Office           NY
50       Cathedral        Boston, MA           2,990       7/31/14    $84,780
51       Newton           Newton               5,960       1/31/15   $143,026
         Center           Center, MA
52       Charles St.      Boston, MA             914       3/31/14    $50,000
         Station
53*      Plaza Finance    Long Island          1,728       8/31/14    $68,000
         Station          City, NY
54       Palisade         Fort Lee, NJ         2,134       9/30/14    $75,000
         Station
55*      Rotterdam        Schenectady,           225     10/31/14     $30,600
         Square Mall      NY
         Station
56       Lake Branch      Ronkonkoma,          3,256       1/31/15    $87,000
         Ronkonkoma       NY
57       Main Office      Eliot, ME            4,514     12/31/14     $72,000
58*      Georgetown       Georgetown,          5,200       2/28/15    $98,800
         Branch           MA
59       Main Office      Pelham, NH           4,507       8/31/15    $79,807
60       Main Office      Taftvile, CT         3,232     10/31/13     $65,652




                                                         10
Lease Risk Model Analysis in the Northeast Area                                                 SM-AR-14-001



Count    Facility Name      Facility       Interior      Lease       Lease     Projected   Potential
                            Address        Square      Expiration   Amount       Lease     Savings
                                           Footage        Date                  Amount
61       Main Office      Hopatcong,           4,704      8/31/15   $103,488
                          NJ
62       Main Office      Katonah, NY         4,899     10/31/13    $122,160
63       Main Office      Essex, CT           1,856       2/28/15    $47,967
64       Main Office      Remsenburg,         1,380       9/30/14    $54,000
                          NY
65       Main Office      Ringwood, NJ        5,351       9/30/15   $100,109
66       Main Office      Hampton, NJ         3,062     10/18/14     $81,750
67       Methuen          Methuen, MA         4,177       5/31/14    $80,198
         Branch
68*      Brookline        Brookline, MA       1,691     11/30/14     $56,000
         Village Branch
69*      Main Office      Sherrill, NY        3,489     11/24/14     $49,000
70*      Homecrest        Brooklyn, NY        3,820       8/31/15   $121,248
         Finance
         Station
71       Annex            Ballston Spa,       5,000       1/31/14    $89,600
                          NY
72       Carrier Annex    Washington,         3,066       1/31/15    $60,000
                          NJ
73*      New              Staten Island,      1,968       9/30/14    $68,950
         Springville      NY
         Station
74       Amity Finance    New Haven,          2,396     10/31/13     $56,197
         Station          CT
75       Van Brunt        Brooklyn, NY       18,560       8/22/14   $427,000
         Station
76*      Retail Station   Emerson, NJ         1,630       3/31/15    $55,290
77       Main Office      Phoenix, NY         3,884       6/30/14    $54,376
78       Main Office      Dumont, NJ          6,032       2/28/15   $122,230
79       Main Office      York Harbor,        2,961       6/30/14    $51,600
                          ME
80       Loiza Street     San Juan, PR       14,635       8/31/15   $411,400
         Station
81       N.               River Edge,         1,190     12/31/14     $45,666
         Hackensack       NJ
         Station
82       Station 'A'      Montclair, NJ       1,800       9/30/15    $54,000
83       Main Office      Middleton, MA       2,970       9/30/14    $62,073
84       Main Office      Terryville, CT      5,376       6/30/14    $98,826
85       Siasconset       Siasconset,           752     12/31/14     $41,360
         Class Branch     MA
86       Rio Piedras      San Juan, PR        6,244       9/30/15   $205,000
         Station
87       Main Office      Southborough        5,554       5/18/14    $92,080
                          MA
88       Main Office      Kinderhook,         2,065       2/28/14    $55,755
                          NY
89       Main Office      Piermont, NY        1,124     10/31/14     $39,900
90*      Finance          Hartford, CT        2,000       2/28/15    $47,015
         Station
91       East End         St. Thomas,         3,490       4/30/14   $134,029
         Station          VI
92*      Main Office      Great               1,970       4/30/15    $43,800
                          Meadows, NJ




                                                        11
Lease Risk Model Analysis in the Northeast Area                                                 SM-AR-14-001



Count    Facility Name      Facility       Interior      Lease       Lease     Projected   Potential
                            Address        Square      Expiration   Amount       Lease     Savings
                                           Footage        Date                  Amount
93       Main Office      Deep River,          4,300      6/30/15    $74,071
                          CT
94       Main Office      Kent, CT            3,934       3/31/15    $77,303
95       Roosevelt        Garden City,        1,530       7/31/14    $61,200
         Field Finance    NY
         Station
96       Main Office      North Dighton,      3,000       4/20/15    $63,000
                          MA
97       Junction Blvd.   Jackson               821       6/30/14    $42,000
         Finance          Heights, NY
         Station
98       Main Office      Blauvelt, NY        4,169     11/30/14     $90,445
99       South            Paterson, NJ        3,390       6/30/15    $66,000
         Paterson
         Branch
100*     Westwood         Rivervale, NJ       3,942       1/31/15    $84,000
         Rivervale
101      Carlstadt        Carlstadt, NJ       2,325     10/31/13     $70,000
         Branch
102      Old Bethpage     Old Bethpage,       4,253     11/30/14    $123,000
         Station          NY
103      Hudson Mall      Hudson, NH          2,315     12/31/14     $44,911
         Station
104      Main Office      Cazenovia,          4,408       6/30/14    $54,000
                          NY
105      East End         Washington          3,062       5/31/15    $54,000
         Finance Unit     Depot, CT
106      Nahant           Nahant, MA          1,455     11/30/14     $37,200
         Branch
107      Plaza Carolina   Carolina, PR        2,398     12/31/13     $87,980
         Station
108      Woodcliff        Woodcliff           1,204       4/30/14    $42,570
         Lake Station     Lake, NJ
109      Main Office      Hawthorne,          4,350       8/31/14   $101,370
                          NY
110      Airport          Carolina, PR        1,400     11/30/14     $65,800
         Finance
         Station
111*     Melcourt         Bronx, NY             840     11/30/14     $34,320
         Finance
         Station
112      Main Office      North               3,603       9/30/14    $72,000
                          Falmouth, MA
113      Main Office      Antrim, NH          3,140       1/31/15    $52,532
114      Longmeadow       Longmeadow,         2,158        8/9/15    $45,334
         Branch           MA
115      Main Office      Sterling, MA        2,784       6/30/14    $47,251
116      Main Office      Washington          1,244     10/31/14     $37,724
                          Depot, CT
117      Mount Carmel     Bronx, NY           1,500     10/31/14     $48,000
         Fin Station
118      Main Office      De Ruyter, NY       2,256       9/30/15    $33,840
119      Main Office      Jefferson           1,603       3/31/15    $46,900
                          Valley, NY
120      Main Office      Belvidere, NJ       4,255       3/31/14    $66,000
121      Readville        Hyde Park,          1,032       4/30/14    $31,499
                          MA
122      Main Office      Hewitt, NJ          4,376       4/30/14    $76,500




                                                        12
Lease Risk Model Analysis in the Northeast Area                                                SM-AR-14-001



Count    Facility Name      Facility      Interior      Lease       Lease     Projected   Potential
                            Address       Square      Expiration   Amount       Lease     Savings
                                          Footage        Date                  Amount
123      Main Office     West Tisbury,        1,305    10/31/13     $38,870
                         MA
124      Winthrop        Winthrop, MA        2,016       4/23/14    $44,850

125      Main Office     Highland            2,312       8/31/14    $50,967
                         Falls, NY
126      Trujillo Alto   Trujillo Alto,      4,209       2/28/15   $107,750
         Station         PR
127      Main Office     Sharon, MA          6,608       6/30/15    $99,620
128      Main Post       Goshen, CT          3,112       8/31/15    $58,330
         Office
129*     Main Office     Ashfield, MA        1,984       8/31/14    $34,000
130      Main Office     Mahopac               759     12/31/14     $23,876
                         Falls, NY
131      Pilgrim         Bronx, NY           2,100       4/30/15    $58,800
         Finance
         Station
132      Bedford         Bedford, NH         1,800       7/31/14    $34,200
         Station
133*     Walnut Hill     Woonsocket,         2,017     11/30/13     $34,672
         Station         RI
134      Main Office     Jamesville,         3,414       8/27/15    $51,300
                         NY
135      Main Office     Patterson, NY       1,480       3/31/14    $32,250
136      Main Office     Mashpee, MA         6,795     11/30/13    $137,970
137      Preakness       Wayne, NJ           1,950     11/30/14     $48,264
         Station
138      Main Office     Warwick, NY         5,116     11/30/13     $94,317
139*     Huntington      Shelton, CT         1,330       6/30/15    $35,195
         Station
140      Main Post       South               3,732     12/31/14     $68,072
         Office          Glastonbury,
                         CT
141      Main Office     Earlville, NY       1,656       7/31/15    $25,800
142      Ledyard         Ledyard, CT         5,538       4/30/15    $81,200
         Station
143      Main Office     Berkeley            6,600       3/31/15   $198,273
                         Heights, NJ
144      Hooksett        Hooksett, NH        9,110       8/13/15   $123,656
         Branch
145      Main Office     Sandwich, MA        5,600     11/30/13     $94,000
146      Main Office     Norfolk, MA         2,959       1/31/14    $50,232
147      Main Office     Vernon, NY          3,262     12/29/14     $35,138
148      Main Office     East                2,500       6/30/15    $43,750
                         Wareham, MA
149*     Main Office*    East Berlin,        1,193       6/30/15    $25,344
                         CT
150      Main Office     Harmony, RI         1,408       3/31/15    $26,465
151      Main Office     Blossvale, NY       2,015     10/14/14     $25,716
152*     Main Office*    Mansfield           1,627       7/31/15    $29,147
                         Center, CT
153      Main Office     Westwood,           2,560       6/30/14    $53,000
                         MA
154      Main Office     Wanaque, NJ         1,500       6/30/14    $31,900
155*     Main Office     Greenfield          2,140       6/30/14    $39,060




                                                       13
Lease Risk Model Analysis in the Northeast Area                                                 SM-AR-14-001



Count    Facility Name       Facility       Interior     Lease       Lease     Projected   Potential
                             Address        Square     Expiration   Amount       Lease     Savings
                                            Footage       Date                  Amount
                          Center, NY
156      Main Office      Newcastle,           4,389      11/8/14    $72,370
                          ME
157      Hudson Valley    Kingston, NY           220      7/31/14    $18,975
         Mall-Kiosk
158      Main Office      Sharon               1,955      4/30/14    $35,874
                          Springs, NY
159      Main Office      Berwick, ME          4,000      6/15/15    $49,610
160      Main Office      Sharon, CT           2,784    10/31/13     $49,500
161*     Main Office      Parish, NY           2,004      8/31/14    $26,568
162      Main Office      Holden, MA           4,698      8/31/15    $63,422
163      Main Office      Auburn, MA           7,573      3/31/15    $96,000
164      Barnum           Bridgeport, CT      10,772      2/28/15   $220,000
         Station
165      Main Office      Middlefield,         1,582      5/31/14    $30,000
                          CT
166*     Park Station     Paterson, NJ         1,930      8/31/14    $36,626
167      Great            Clay, NY               420    10/31/13     $15,000
         Northern Mall
         Self-Service
         Postal Center
168*     Delawanna        Clifton, NJ          1,318      4/30/14    $33,750
         Station
169      Fleetwood        Mount                4,382      2/28/15    $91,126
         Station          Vernon, NY
170      Main Office      Chester, CT          2,780      2/28/14    $44,400
171*     Great Kills      Staten Island,       1,834      9/30/15    $52,272
         Station          NY
172      Eastwood         Syracuse, NY         2,950    12/31/14     $42,500
         Finance
         Station
173      Noank Station    Groton, CT             528      5/31/14    $15,600
174      Main Office      Memphis, NY          1,602    11/30/14     $28,100
175      Main Office      Central Valley,      1,625      7/31/15    $35,004
                          NY
176      Main Office     Shutesbury, MA        1,249      4/30/14    $22,000
177      Main Office      Hillsdale, NJ        3,551      2/28/15    $79,897
178      Main Office      South Salem,         1,470    11/30/14     $38,000
                          NY
179      Cruegers         Croton On              689      4/28/15    $20,985
         Branch           Hudson, NY
180      Main Office      Moodus, CT           2,320    10/31/13     $32,000
181      Detached         Secaucus, NJ           768      2/28/14    $25,344
         Lockbox Unit
182      Main Office      Crompond,            1,107      5/31/15    $27,762
                          NY
183*     Main Office     Purdys, NY              800    12/31/14     $24,000
184      Fayville         Fayville, MA           936    12/31/13     $20,000
         Station
185      Main Office      Oriskany, NY         2,076      7/14/15    $23,094
186      Main Office      Westtown, NY           996    12/31/13     $24,000
187*     Esplanade        Bronx, NY              637      9/30/15    $21,600
         Station




                                                        14
Lease Risk Model Analysis in the Northeast Area                                                 SM-AR-14-001



Count    Facility Name      Facility       Interior      Lease       Lease     Projected   Potential
                            Address        Square      Expiration   Amount       Lease     Savings
                                           Footage        Date                  Amount
188      Main Office     Wolfeboro             1,600      7/31/15    $34,690
                         Falls, NH
189      Main Office     Bryantville,         1,185     12/31/13     $23,100
                         MA
190*     Highlawn        Brooklyn, NY         1,323       9/30/14    $41,588
         Station
191      Main Office     East                 3,515       8/31/14    $60,375
                         Falmouth, MA
192      Main Office     Salt Point, NY       1,199        9/6/14    $26,890
193      Main Office     Gillette, NJ         1,605       2/28/15    $51,000
194      South Station   Yonkers, NY          5,912       3/31/15   $100,000
195      Main Office     High Falls, NY         854     12/31/13     $24,000
196      Main Office     West                 1,656       4/30/15    $28,854
                         Bridgewater,
                         MA
197      Salem -         Salem, MA              525     10/31/13     $15,000
         Museum
         Place
198      Main Office     Meriden, NH            262       8/31/15    $22,980
199      Main Office     Highland Mills,      3,000       6/14/15    $54,840
                         NY
200      Main Office     Yorkville, NY        2,716       9/30/14    $27,000
201      North           Plymouth, MA         1,131     12/31/13     $21,900
         Plymouth
         Station
202      Main Office     Cos Cob, CT          2,576       2/28/15   $136,305
203      Main Office     Ashaway, RI          2,322     10/31/13     $38,000
204      Bayside         Bayside, NY         10,975       2/28/14   $315,000
         Carrier Annex
205      Montague        Montague, NJ           960       5/31/15    $23,000
         Finance Unit
206      Main Office     West Rutland,        4,166       2/28/15    $74,988
                         VT
207      Main Office     Monument             1,840     10/31/14     $36,500
                         Beach, MA
208      Main Office     Brooklyn, CT         3,471       2/28/14    $50,000
209*     Main Office     Hoosick, NY            360        7/4/14    $10,800
210      Main Office     Feeding Hills,       2,530       5/31/15    $41,400
                         MA
211      Main Office     Bingham, ME          3,000     11/30/14     $53,460
212*     Main Office     Pottersville,          358       2/28/15    $13,000
                         NJ
213      Main Office     Broad Brook,         1,600       4/30/14    $25,600
                         CT
214      Detach Lock     West Babylon,          906     11/30/13     $24,000
         Box Unit        NY
215      Main Office     Green Harbor,        1,584       4/30/15    $27,185
                         MA
216      Newton Upper    Newton Upper         1,650       2/28/15    $37,950
         Falls           Falls, MA
217      Setauket        Setauket, NY         1,457     10/31/14     $33,000
         Branch
218      Teaticket       Teaticket, MA        1,519       9/30/14    $31,775
         Station
219      Main Office     Cobalt, CT             539       5/31/14    $12,000




                                                        15
Lease Risk Model Analysis in the Northeast Area                                                SM-AR-14-001



Count    Facility Name     Facility       Interior      Lease       Lease     Projected   Potential
                           Address        Square      Expiration   Amount       Lease     Savings
                                          Footage        Date                  Amount
220      Main Office     Maybrook, NY         1,892    12/31/14     $36,500
221      Main Office     Raritan, NJ         4,207       1/31/15    $86,000
222      Astor           Boston, MA          4,107        4/6/15    $71,196
223      Main Office     Delaware, NJ          270       9/30/15     $9,600
224*     Main Office     Lafayette, NJ       1,118       9/30/15    $25,000
225      Main Office     Sheldonville,         596     10/31/14     $14,000
                         MA
226      Main Office     Brookfield, MA      2,175       7/31/14    $30,890
227      Main Office     New                 1,540     12/31/14     $18,737
                         Woodstock,
                         NY
228      Main Office     Lacona, NY          2,160       4/30/14    $23,760
229      Main Office     Farmington,         6,500       4/30/15    $84,650
                         NH
230      Main Office     West Suffield,      1,451       3/31/15    $23,216
                         CT
231      West Acton      Acton, MA           2,204       8/31/14    $33,000
         Station
232      Main Office     Mount Desert,       2,002     11/30/14     $40,231
                         ME
233      Main Office     Henniker, NH        5,173        3/8/15    $81,855
234      Main Office     West Eaton,         1,133       6/30/14    $15,000
                         NY
235      Main Office     Byfield, MA         2,146       9/30/14    $35,088
236      Main Office     Hubbardsville,        333       2/28/15     $8,400
                         NY
237      Guttenburg      West New            1,565       6/30/15    $44,500
                         York, NJ
238      Ernston         Parlin, NJ          1,659       6/30/15    $35,505
         Finance
         Station
239      Main Office     Waterford, NY       4,851     11/30/13     $69,734
240      Main Office     Brownville, NY      1,656       1/31/15    $30,700
241*     Ovington        Brooklyn, NY        1,625       3/31/15    $47,004
         Finance
         Station
242      Main Office     Rock City             598     10/31/14     $13,252
                         Falls, NY
243*     Main Office     Fultonham,            148       6/30/14     $7,200
                         NY
244*     Easton          Easton, CT            747       8/31/15    $20,756
         Branch*
245*     Main Office     Clayville, NY         800       4/11/15    $10,367
246      Bank Plaza      Merrick, NY         1,771       6/30/15    $44,709
         Finance
         Station
247      Main Office     West                2,463       5/31/14    $44,264
                         Wareham, MA
248      Main Office     Ivoryton, CT        2,908       8/31/15    $41,734
249      Main Office     New Milford,          729       3/31/15    $16,872
                         NY
250      Main Office     Poquonock,            893     10/31/14     $15,181
                         CT




                                                       16
Lease Risk Model Analysis in the Northeast Area                                                           SM-AR-14-001



 Count    Facility Name      Facility       Interior       Lease         Lease       Projected       Potential
                             Address        Square       Expiration     Amount         Lease         Savings
                                            Footage         Date                      Amount
Total                                                                                               $6,629,83111

Source: OIG analysis. LBRRM, as of April 30, 2013.
* Also high risk for capacity.




11
   The lease risk model does not contain lease market data for the territory of Puerto Rico. Consequently, we did not
rely on potential savings identified for Puerto Rico. However, we did believe these leases warrant inclusion in this list
as requiring closer scrutiny upon renewal. We subtracted savings related to leases in Puerto Rico ($355,037) and
arrived at potential savings of $6,629,831.


                                                           17
Lease Risk Model Analysis in the Northeast Area                                                          SM-AR-14-001




      Appendix D: Top 50 Riskiest Leases for Capacity Compared to Node Studies

               Finance Unit             Facility City       Lease        Lease       Node     Reason for High Capacity
                                         and State         Amount      Expiration    Study             Score
                                                                          Date


1       Springfield Logistics &       Springfield, MA     $2,600,000       7/31/13    Y      Declining revenue, mail
        Distribution Center*12                                                               volume, and hours worked
2       Bryant Finance Station*       New York, NY          $545,401       8/31/16    Y      Declining revenue and mail
                                                                                             volume
3       New Jersey Surface            Carteret, NJ          $498,429       2/28/14    N      Declining hours worked
        Transportation Center
4       Rockland Mail Processing      Monsey, NY            $322,989       9/30/14    N      No revenue, mail volume, or
        Center                                                                               hours worked
5       Whitehall                     New York, NY          $322,500       5/31/25    N      Declining revenue and mail
        Station*                                                                             volume
6       Palisades Center Station*     West Nyack, NY        $290,651      12/31/18    N      Declining revenue
7       Hanover Finance Station*      New York, NY          $233,602      11/30/25    Y      Declining revenue and mail
                                                                                             volume
8       Plaza Las America             San Juan, PR          $185,000       9/30/17    Y      Declining revenue
9       Patchin Finance Station       New York, NY          $174,840      10/31/16    Y      Declining revenue and mail
                                                                                             volume
10      Boston-Winthrop               Winthrop, MA          $174,240       5/31/19    N      No revenue, mail volume, or
                                                                                             hours worked
11      West Lynn Station             Lynn, MA              $105,000       7/31/17    Y      No revenue, mail volume, or
                                                                                             hours worked
12      Appraisers Store              New York, NY          $100,000      12/31/13    N      Declining revenue
13      Swampscott Station            Swampscott, MA         $99,600       1/31/15    Y      No revenue, mail volume, or
                                                                                             hours worked
14      Georgetown Station            Georgetown, MA         $98,800       2/28/15    N      No revenue, mail volume, or
                                                                                             hours worked
15      Battery Park Station          New York, NY           $83,305       4/30/15    N      No revenue, mail volume, or
                                                                                             hours worked
16      Clason Point Finance          Bronx, NY              $73,500       6/30/15    N      Declining revenue
        Station
17      Beach Branch                  Revere, MA             $66,700      10/31/15    N      Declining revenue
18      Ogensburg Post Office         Ogdensburg, NJ         $60,000       7/31/18    N      Declining revenue and mail
                                                                                             volume
19      Bradford Station              Haverhill, MA          $54,849       6/30/18    N      No revenue, mail volume, or
                                                                                             hours worked
20      Pitt Finance Station          New York, NY           $50,000       5/31/15    Y      Declining revenue and mail
                                                                                             volume
21      Landing Post Office           Landing, NJ            $46,525       2/29/16    N      Declining revenue and mail
                                                                                             volume
22      Fieldston Finance Station     Bronx, NY              $44,000      12/31/16    N      Declining revenue
23      Cranford Finance Station      Bronx, NY              $38,250       3/31/17    N      Declining revenue
24      Alpha Branch                  Phillipsburg, NJ       $36,000       8/31/13    N      No revenue, mail volume, or
                                                                                             hours worked
25      Melcourt Finance Station      Bronx, NY              $34,320      11/30/14    N      Declining revenue
26      Botanical Finance Station     Bronx, NY              $33,678    6/30/2016     N      Declining revenue
27      Tudor City Finance Station    New York, NY           $31,800       1/31/16    Y      Declining mail volume
28      Castle Hill Finance Station   Bronx, NY              $29,328      12/31/16    N      Declining revenue
29      East Watertown Branch         Watertown, MA          $24,900       6/30/16    N      Declining revenue and mail
                                                                                             volume
30      Esplanade Finance Station     Bronx, NY              $21,600       9/30/15    N      Declining revenue
31      South Waltham Branch          Waltham, MA            $19,728       9/30/14    N      Declining revenue



12
     Leases with an asterisk are also high risk for lease rate.


                                                              18
Lease Risk Model Analysis in the Northeast Area                                                        SM-AR-14-001



               Finance Unit             Facility City     Lease        Lease       Node     Reason for High Capacity
                                         and State       Amount      Expiration    Study             Score
                                                                        Date


32      Hurleyville Post Office       Hurleyville, NY      $18,000       7/31/15    N      Declining revenue and mail
                                                                                           volume
33      Drieser Loop Finance          Bronx, NY            $16,800        M2M13     N      Declining revenue
        Station
34      Charleston Post Office        Charleston, ME       $11,140      12/31/16    N      Declining revenue and mail
                                                                                           volume
35      Pequabuck Post Office         Pequabuck, CT         $8,100       6/30/17    N      Declining revenue and mail
                                                                                           volume
36      Tioga Center Post Office      Tioga Center,         $7,200       6/30/13    N      Declining revenue and mail
                                      NY                                                   volume
37      Northern New England          Manchester, NH        $7,116       5/31/13    N      Terminated
        Customer Service &
        Distribution
38      Sterling Forest Post Office   Sterling Forest,      $7,000      10/31/14    N      Declining revenue
                                      NY
39      South Harwich Post Office     South Harwich,        $6,388       7/31/17    N      Declining revenue and mail
                                      MA                                                   volume
40      Websterville Post Office      Websterville, VT      $6,300       2/28/13    N      Declining mail volume
41      North Hoosick Post Office     North Hoosick,        $5,400       3/31/15    N      Declining revenue and mail
                                      NY                                                   volume
42      Hoffmeister Post Office       Hoffmeister, NY       $3,800       6/30/16    N      Declining revenue
43      Yantic Post Office            Yantic, CT            $3,600         M2M      N      Declining revenue and mail
                                                                                           volume
44      Crouseville Post Office       Crouseville, ME       $2,820        Y2Y14     N      Declining revenue and mail
                                                                                           volume
45      Clockville Post Office        Clockville, NY        $2,795       8/31/14    N      Declining revenue and mail
                                                                                           volume
46      Brunswick Post Office         Brunswick, ME         $1,980          Y2Y     N      Declining revenue and mail
                                                                                           volume
47      Boston College Branch         Chestnut Hill,            $1      12/31/14    N      Declining revenue
                                      MA
48      Babson Park Branch            Wellesley Hills,          $1       4/30/18    N      Declining revenue
                                      MA
49      Macys Finance Station         New York, NY              $1          Y2Y     N      Declining revenue
50      United Nation Finance         New York, NY              $0         M2M      Y      Declining mail volume and
        Station                                                                            revenue
Source: OIG analysis. LRRM, as of April 30, 2013.




13
     Month to month.
14
     Year to year.


                                                           19
Lease Risk Model Analysis in the Northeast Area                SM-AR-14-001



                           Appendix E: Management’s Comments




                                                  20
Lease Risk Model Analysis in the Northeast Area        SM-AR-14-001




                                                  21
Lease Risk Model Analysis in the Northeast Area        SM-AR-14-001




                                                  22
Lease Risk Model Analysis in the Northeast Area        SM-AR-14-001




                                                  23
